Case: 18-12678

Date Filed: 09/02/2020

Page: 1 of 18

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-12678
Non-Argument Calendar

D.C. Docket No. 8:16-cr-00422-JDW-MAP-l

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
WILLIAM HAROLD WRIGHT, JR.,
a.k.a. William Wright,
a.k.a. "Flat Top",
Defendant-Appellant.

Appeal from the United States District Court
for the Middle District of Florida
(September 2, 2020)
Before MARTIN, ROSENBAUM, and ED CARNES, Circuit Judges.
PER CURIAM:

3">

Case: 18-12678

Date Filed: 09/02/2020

Page: 2 of 18

William Harold Wright, Jr, appeals his convictions and sentences for one
count of conspiracy to possess heroin with intent to distribute it and six counts of
possessing heroin and aiding and abetting another in possessing it with intent to
distribute it. He challenges the sufficiency of the indictment, the district court’s
finding that he knowingly and voluntarily waived his right to counsel, and the
application of a sentencing enhancement based on his co-conspirator’s use of a
firearm. i
I.
We first consider Wright’s argument that the district court erred by denying
his motion to dismiss the indictment because it did not sufficiently inform him of
the charges against him. Count One of the indictment alleged that Wright, “[f]rom
an unknown date, which was at least in 2015, through on or about September 28,
2016, in the Middle District of Florida and elsewhere . . . knowingly and willfully
conspire[d] and agreef d] with other persons both known and unknown to the Grand
Jury, to possess with intent to distribute and to distribute” a kilogram or more of
Although he is represented by appointed counsel in this appeal, Wright filed pro se a
letter asking us to take “judicial notice” of certain arguments he had asked counsel to raise in his
appellate brief. He then filed another letter challenging the sufficiency of his indictment,
complaining about his appellate counsel’s performance, and asking this Court to issue an
opinion. We have already denied Wright’s motion for substitution of counsel and his motion for
reconsideration of that denial. Because Wright is represented by counsel on appeal, pro se
filings are not permitted. See 11th Cir. R. 25-1 (“When a party is represented by counsel, the
clerk may not accept filings from the party.”). Even if we were to consider the documents that
he has submitted pro se, we note that “a criminal defendant’s appellate counsel is not required to
raise all nonfrivolous issues on appeal.” Payne v, United_States, 566 F.3d 1276, 1277 (11th Cir.
2009).
2

Case: 18-12678

Date Filed: 09/02/2020

Page: 3 of 18

heroin, in violation of21 U.S.C §§ 841(b)(1)(A), 846. Counts Two through Seven
alleged that Wright, “[o]n or about [a specific date], in the Middle District of
Florida . .. knowingly and intentionally possessed], and aid[ed] and abet[ted]
another in possessing, with intent to distribute” heroin, in violation of § 841(a)(1),
(b)(1) and 18 U.S.C. § 2. The dates for the charged substantive offenses were all
between October. 22, 2015, and July 27, 2016.
Wright moved to dismiss the indictment. He argued that the indictment was
deficient because it failed to specify the location of the conspiracy or name his
co-conspirators and also because it provided an “open ended” date for the
conspiracy. And he argued that the substantive counts failed to allege whom he
aided and abetted or in what way. The district court found the indictment
sufficient and denied the motion.
Wright reasserts on appeal the arguments that he made in the district court.
He also contends for the first time that there was a fatal variance in the indictment
because the government presented evidence at trial that the conspiracy began in
2014 instead of in 2015.
Whether an indictment sufficiently alleges an offense is a question of law
that we review de novo. United States v. Steele. 178 F.3d 1230, 1233 (11th Cir.
1999). “An indictment is sufficient if it: (1) presents the essential elements of the
charged offense, (2) notifies the accused of the charges to be defended against, and
3

Case: 18-12678

Date Filed: 09/02/2020

Page: 4 of 18

(3) enables the accused to rely upon a judgment under the indictment as a bar
against double jeopardy for any subsequent prosecution for the same offense, ” Id.
at 1233-34 (quotation marks omitted). “The validity of an indictment is governed
by practical, not technical considerations.” United States v. Varkonyi, 645 F.2d
453, 456 (5th Cir. Unit A May 1981).2 The appropriate question is whether the
indictment “conforms to minimal constitutional standards.” Id. Wright’s
indictment did.
“An indictment charging a conspiracy under 21 U.S.C. § 846 need not be as
specific as an indictment charging a substantive count.” United States v. Pease,
240 F.3d 938, 943 (11th Cir. 2001) (quotation marks omitted). We have held that
alleging an offense occurred within a judicial district is sufficient to describe the
location of the offense. See United States v. Yonn, 702 F.2d 1341, 1348 (11th Cir.
1983). Wright’s indictment alleged that he committed crimes in the Middle
District of Florida. And we have held that “absent a discovery order, the
[government] has no general obligation to disclose the names of unindicted co­
conspirators who will not be called as witnesses.” United States v. White, 846
F.2d 678, 693 (11th Cir. 1988); cf. United States v. Martinez, 96 F.3d 473, 477
(11th Cir. 1996) (upholding a defendant’s conviction where the indictment alleged

2 In Ftnnnerv. City of Prichard. 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc), we
adopted as binding precedent all decisions of the former Fifth Circuit handed down before
October 1,1981.
4

Case: 18-12678

Date Filed: 09/02/2020

Page: 5 of 18

that the defendant conspired with “unknown persons”). While Wright’s indictment
did not name specific co-conspirators, the district court noted that the government
identified the co-conspirators it intended to call as witnesses, and during discovery
Wright sought information for purposes of cross-examining and impeaching those
witnesses. Wright’s indictment was sufficient as to the conspiracy charge even
though it did not specify a location narrower than the Middle District of Florida
and did not list his co-conspirators by name.
We also have upheld as sufficient an indictment alleging that the defendants
engaged in a conspiracy occurring “[fjrom on or about January, 1978 to on or
about December 1981, the exact dates being to the Grand Jury unknown.” United
States v. Harrell. 737 F.2d 971, 974-75 & n.3 (11th Cir. 1984); accord Pease, 240
F.3d at 943 & n.4 (holding that an indictment was sufficient when it alleged that
the defendant had conspired to distribute drugs with other persons known and
unknown to the grand jury, from an unknown start date to a specified end date).
Wright’s indictment alleged that he conspired with others to possess a kilogram or
more of heroin with the intent to distribute it beginning “at least in 2015” and
continuing “through on or about September 28, 2016.” Wright relies on a Ninth
Circuit decision, United States v. Cecil 608 F.2d 1294, 1295 (9th Cir. 1979), but
even if that decision were binding authority, it does not fit these facts. In Cecil, the
Ninth Circuit held that an indictment charging a drug conspiracy “beginning on or
5

Case: 18-12678

Date Filed: 09/02/2020

Page: 6 of 18

before July, 1975 and continuing on or after October, 1975” was insufficient
because it was “open- ended in both directions.” 14 at 1297. Wright’s indictment,
by contrast, was

not open-ended in both directions: it included an end date of on

or about September 28, 2016.” The start date of “at least in 2015,” along with the
specific

end date and the dates of the substantive charges, provided enough notice

to Wright of the dates of the alleged conspiracy to “confoim[ ] to minimal
constitutional standards.” Varkonyi, 645 F.2d at 456.
The substantive offenses were also sufficiently alleged because Wright’s
indictment did not have to specify the names of the people he aided and abetted or
how he did it. See United StatesjLMartin, 747 F.2d 1404, 1407 (11th Cir. 1984)
(explaining that “[a]iding and abetting need not be specifically alleged in the
indictment”); see also United States w Sharpe. 438 F.3d 1257, 1263 n.3 (11th Cir.
2006) (“It is not necessary for an indictment to allege in detail the factual proof
that will be relied upon to support the charges.” (alteration and quotation marks
omitted)).
Wright also contends that there was a fatal variance between the allegations
of the indictment and the evidence presented at trial. He did not raise that
contention in the district court, so we review it only for plain error. See United
States v.

De La Garza. 516 F.3d 1266, 1269 (11th Cir. 2008). Wright must show

that an error occurred, that the error was plain, that the error affected his
6

Case: 18-12678

Date Filed: 09/02/2020

Page: 7 of 18

substantial rights, and that the failure to correct the error would seriously affect the
fairness of the judicial proceeding. Id, Wright cannot show any error, so he
cannot establish plain error.
The evidence at trial showed that the conspiracy existed in 2014, which
Wright asserts was

before the 2015 start date as charged in the indictment.3 But

the indictment did not allege that the conspiracy started in 2015. Instead it alleged
that the conspiracy began “at least in 2015,” which means that it may have begun
before 2015. Evidence that the conspiracy already existed in 2014 is not
inconsistent with the time period alleged in the indictment . See United States v.
Gold, 743 F.2d 800, 813 (11th Cir. 1984) (explaining that a “variance exists where
the evidence at trial proves facts different from those alleged in the indictment, as
opposed to facts which, although not specifically mentioned in the indictment , are
entirely consistent with its allegations”)- And we have held that when the
government proves at trial that the defendant committed a crime before the
indictment was returned and within the statute of limitations, the allegation of a
different date in the indictment is generally not a fatal variance . United States v.
Grapp, 653 F.2d 189, 195 (5th Cir. 1981); see also United States v. Roberts, 308
F.3d 1147, 1156 (11th Cir. 2002) (“[We] will not disturb a conviction due to a

3 A witness named Jerry Cunningham testified at trial that Wright paid him to transport
shipping crates in 2014. The government relied in part on this testimony to establish that the
conspiracy existed in 2014.
7

Case: 18-12678

Date Filed: 09/02/2020

Page: 8 of 18

variance between the date the indictment alleges the offense occurred and the date
the proof shows

that it occurred if the date shown at trial falls within the statute of

limitations and before the return of the indictment”). Because the statute of
limitations for a violation of 21 U.S.C. § 846 is five years, see 18 U.S.C. § 3282(a),
and the indictment was returned in 2016, proof at trial of the conspiracy having
existed as early as 2014 was not fatal.
II.
Wright also contends that the district court erred by finding that he
knowingly and voluntarily waived his right to counsel. He challenges the
adequacy of the court’s pretrial Faretta4 inquiry and argues that the court should
have conducted a second inquiry before sentencing.
The record shows that Wright has a history of being dissatisfied with his
representation: five different counsel and six appointments and discharges within
the span of less than two years On the same day that a criminal complaint was
filed against him, Wright was appointed counsel. A few weeks after that, Wright
retained counsel, and appointed counsel’s motion to withdraw was granted. About
a month later, Wright and his retained counsel agreed that counsel should withdraw
from representation, and after conducting a hearing, the court granted their mutual

4 Faretta v. California. 422 U.S. 806, 95 S. Ct. 2525 (1975).
8

Case: 18-12678

Date Filed: 09/02/2020

Page: 9 of 18

request and a continuance of the trial. The court appointed Wright’s third attorney,
Timothy Fitzgerald, to represent him.
Two months later, citing disagreements related to discovery and the filing of
motions, Wright filed a motion asking that Fitzgerald be discharged and new
counsel appointed. The court denied the motion, finding no good cause to
discharge Fitzgerald. It also warned Wright that if he “continue^] to reject
competent counsel through his uncooperative behavior (or his explicit renunciation
of counsel), the Court may, in its discretion, conclude [he] has voluntarily waived
his right to counsel.” Wright filed two more motions to replace Fitzgerald as
counsel,

and the court construed the second motion as a request to proceed pro se

and scheduled a Faretta inquiry.
At that inquiry the court found that Wright had “given [it] no reason , now or
in the past, to remove [] Fitzgerald.” The court asked Wright if he wanted to
continue
want to

with Fitzgerald or represent himself. Wright responded that he did not

do either and that the court was forcing him to proceed pro se. The court

and Wright then had a lengthy colloquy on the subject. The court reviewed with
Wright the charges against him and the penalties he faced, and it asked Wright if
he had ever represented himself in a criminal case. Wright said that he had. Then
came these questions and answers:
THE COURT: Do you understand that if you represent yourself,
you’re on your own?
9

Case: 18-12678

Date Filed: 09/02/2020

Page: 10 of 18

THE DEFENDANT: Yes, I understand that.
THE COURT: And that the court is not going to tell you how to try
your case or give you advice on how to try your case?
THE DEFENDANT: Yes.
THE COURT: Are you familiar with the rules of evidence?
THE DEFENDANT: Yes, lam.
THE COURT: Do you understand that during the course of the trial
the court rules on matters of evidence or objections?
THE DEFENDANT: Excuse me, Judge Your Honor, I think I [will]
probably retain an attorney before we even get that far, but
THE COURT: Let me explain to you because you’ve told me that
you want to represent yourself.
THE DEFENDANT: Go ahead.
THE COURT: Do you understand that when the court makes a ruling,
that you’ll have to abide by that ruling.
THE DEFENDANT: Yes, sir.
•
THE COURT: We’ve discussed earlier about the Rules of Criminal
Procedure. I talked about Rule 16. Are you familiar with the Rules of
Criminal Procedure?
THE DEFENDANT: Yes.
THE COURT: Do you understand that those rules govern the way the
court structures the trial?
THE DEFENDANT: Yes, I do.
THE COURT: And that they’ll be applied equally to you as they
would be the government?
THE DEFENDANT: Yes, I do.
THE COURT: At our January hearing I told you that I did not think it
was a good idea for you to represent yourself and at that time you
agreed.
THE DEFENDANT: Well, I don’t have a choice in this matter, Judge
Your Honor.
THE COURT: No, you have a choice.
THE DEFENDANT: No, I don’t have a choice. I might well be
representing myself if I’m getting represented by somebody that’s not
giving me — I mean, what else am I going to do? I mean, like I say,
all my rights is being denied, you know, technically denied. My right
to file motions is being denied. My right to reply to the prosecutor’s
response is being denied. Everything is being denied.

10

Case: 18-12678

Date Filed: 09/02/2020

Page: 11 of 18

THE COURT: So I’ll ask you one more time: Is it your desire to
represent yourself?
THE DEFENDANT: Yes, yes, yes.
THE COURT: All right. I find that you have knowingly and
voluntarily waived your right to counsel and that you elect to proceed
pro se.
The court found that Wright had “rejected his competent, conflict-free
counsel and instead elected to represent himself. . . [and] ha[d] chosen a deliberate
course of conduct — to ignore his appointed counsel and to represent himself with
full knowledge of the consequences that choice brings.” The court noted that “[t]o
say that [Wright] has been uncooperative with his lawyers, past and present, would
be a flattering characterization of his behavior towards them.”
After just two months of representing himself, however, Wright again filed a
motion requesting the appointment of new counsel. After the court denied the
motion, Wright “reluctantly” asked to have Fitzgerald reappointed. The court
granted the motion and appointed Fitzgerald as counsel for a second time. It didn t
last long. Less than a month later, Wright filed a motion to discharge Fitzgerald
and be appointed new counsel. The court discharged Fitzgerald but denied
Wright’s request for new counsel, finding that his waiver of counsel still stood.5
On the second day of trial, Wright requested the appointment of standby trial
counsel. The court appointed Kevin Beck.

5 The court later appointed new standby counsel for the limited purpose of assisting
Wright with accessing digital discovery.
11

Case: 18-12678

Date Filed: 09/02/2020

Page: 12 of 18

After the jury found Wright guilty of all charges, the court changed Beck’s
role, appointing him to represent Wright at sentencing. But Wright filed a motion
to discharge Beck and be appointed new counsel, arguing that Beck had deterred
him from filing certain motions. The court held a hearing on the motion and found
no good cause to discharge Beck. The court then advised Wright as follows:
THE COURT: You have two choices: You can represent yourself or
you can let Mr. Beck represent you. . . . Those are the only two
choices you have. That’s under Eleventh Circuit and United States
Supreme Court authority. You must let me know what your choices
are.
MR. WRIGHT: Judge Your Honor, I’m not having him represent me
and I’m not going to waive my right to counsel.
THE COURT: You have already waived your right to counsel, I’ve
made that determination . . .
MR. WRIGHT: I never waived my right to counsel, Judge.
THE COURT: That’s your position. You can tell the Eleventh Circuit
about it, sir.
The court dismissed Beck as counsel and found that Wright had waived his
right to be represented [by] appointed counsel by going through[,] by [its] count[,]
six different lawyers, knowing full well that if he chose to dismiss or attempt to
dismiss another court-appointed counsel, he would be on his own.” I he court held
the sentence hearing four days later.
Wright does not challenge the finding that there was no good cause to
discharge Fitzgerald or Beck. Instead, he contends that he did not knowingly and
voluntarily waive his right to counsel.

12

Case: 18-12678

Date Filed: 09/02/2020

Page: 13 of 18

A district court’s conclusion that a defendant knowingly and voluntarily
waived his Sixth Amendment right to counsel is a mixed question of law and fact
that we review de novo. United States v. Garey, 540 F.3d 1253, 1268 (11th Cir.
2008) (en banc). A criminal defendant can decline his Sixth Amendment right to
counsel and affirmatively assert his right to represent himself by “knowingly and
intelligently” waiving the right to counsel. Faretta v. California, 422 U.S. 806,
835, 95 S. Ct. 2525, 2541 (1975). In that situation, the “ideal method” of ensuring
that a defendant understands the consequences of the waiver is to conduct a
“Faretta inquiry” in which the court “inform[s] the defendant of the nature of the
charges against him, possible punishments, basic trial procedure and the hazards of
representing himself.” United States v. K-imball, 291 F.3d 726, 730 (11th Cir.
2002) (quotation marks omitted). We have identified several factors that are
important in determining whether a defendant’s decision to proceed pro se is valid.
Id. at 730-31.6
In certain circumstances, a defendant’s conduct may lead a court to conclude
that he has knowingly and voluntarily waived his right to counsel. In Garey an

6 Those factors are: (1) the defendant’s age, health, and education; (2) the defendant’s
contact with lawyers before trial; (3) the defendant’s knowledge of the nature of the charges and
possible defenses and penalties; (4) the defendant’s understanding of the rules of evidence,
procedure, and courtroom decorum; (5) the defendant’s experience in criminal trials; (6) whether
standby counsel was appointed and, if so, the extent to which standby counsel aided in the trial;
(7) any mistreatment or coercion of the defendant; and (8) whether the defendant was attempting
to manipulate the trial. Kimball, 291 F.3d at 730.
13

Case: 18-12678

Date Filed: 09/02/2020

Page: 14 of 18

uncooperative defendant rejected counsel but also refused to affirmatively invoke
his right to self-representation. 540 F.3d at 1257. In that case, the district court
concluded that no conflict with counsel existed and then asked the defendant
several times whether he wanted to continue with the same attorney or represent
himself. 14 at 1259-62. The defendant refused to choose. Id at 1262.
We rejected the defendant’s contention that he had not knowingly and
voluntarily waived his right to counsel. Id at 1269—70. We held that a
defendant’s uncooperative behavior can waive his right to counsel if he refuses the
services of competent, conflict-free counsel with awareness of his options and of
the potential consequences. Id at 1267. We noted that the “best practice is for a
district court to try first to engage the defendant in a Faretta inquiry, but if the
defendant refuses, it is enough “for the court to inform [him] unambiguously of the
penalties he faces if convicted and to provide him with a general sense of the
challenges he is likely to confront as a pro se litigant.” Id The district court
followed that “best practice” here.
The court repeatedly warned Wright that there was no good cause to
discharge his appointed counsel — first Fitzgerald, then Beck

and that Wright

must either continue with counsel or proceed pro se. Like the defendant in Garey,
Wright refused to make that choice and continued to demand new counsel, But,
absent good cause, an indigent defendant has no right to demand a different
14

Case: 18-12678

Date Filed: 09/02/2020

Page: 15 of 18

appointed lawyer. See id at 1263. Once it became apparent that Wright would not
choose between the competent, conflict-free counsel he was offered and
proceeding pro se, the court conducted a Faretta inquiry. See Garey, 540 F.3d at
1266.
In that inquiry, the court reviewed the charges against Wright and the
penalties he faced. It explained that he would be bound by the rules of evidence
and criminal procedure, and it confirmed that Wright understood. The court
cautioned Wright that it was not a “good idea” to proceed pro se, that he would be
on his own, and that the court could not give him advice on how to try his case.
After its inquiry, which gave Wright exactly the information we suggested in
Kimball it should, 291 F.3d at 730, the court then asked, “Is it your desire to
represent yourself?” Wright replied, Yes, yes, yes.

That was enough.

Because the record shows that Wright knowingly and voluntarily elected to
proceed pro se, the court was not required to conduct a second Faretta inquiry

7 Wright argues that some of the Kimball factors weigh against a finding that his waiver
was valid. He notes that the court failed to ask him about his age or physical or mental health,
but he does not state how those characteristics affected his ability to knowingly and voluntarily
waive his right to counsel. And, contrary to his contention, the court did ask him if he had
experience in representing himself in a criminal trial, and he replied that he had. Wright argues
that the court failed to question him as to his defenses or to “test him on his understanding of
the trial court’s rules and procedures. But the purpose of a Faretta inquiry, as aided by the
Kimball factors is “only to determine whether [Wright] understood that rules do exist. . . [and]
that he would be bound by [them].” Kimball, 291 F.3d at 731. He assured the court that he did
15

Case: 18-12678

Date Filed: 09/02/2020

Page: 16 of 18

when Wright again declined to be represented by counsel at his sentence hearing.
See Nelson v. Alabama. 292 F.3d 1291, 1295 (11th Cir. 2002) (recognizing that
failing to hold a Faretta hearing is not error as a matter of law if the record
demonstrates that the defendant knowingly and voluntarily elected to represent
himself).
III.
Wright’s final argument is that the district court erred by applying a
sentencing enhancement under U.S.S.G. § 2D1.1(b)(1) for his co-conspirator’s
possession of a firearm. He challenges the court’s findings that his co-conspirator,
Ernest Wooten, possessed a gun in furtherance of the conspiracy and that Wooten s
possession of it was reasonably foreseeable to Wright.9
We review the district court’s findings of fact under the guidelines for clear
error and its application of the guidelines to those facts de novo. United. States v,
Pham, 463 F.3d 1239, 1245 (11th Cir. 2006). Under the sentencing guidelines, a
two-level enhancement is appropriate when “a dangerous weapon (including a
firearm) was possessed” in connection with a drug offense. U.S.S.G.
§ 2D 1.1 (b)(1). The enhancement is designed to account for “the increased danger

8 Wright’s rejection of Fitzgerald after his reappointment, which followed Wright having
been pro se for several months, further shows that he knowingly and voluntarily chose to
represent himself with direct knowledge of the consequences.
^ Wooten possessed both a handgun and a rifle, but the district court found that only the
possession of the handgun was in furtherance of the conspiracy.
16

Case: 18-12678

Date Filed: 09/02/2020

Page: 17 of 18

of violence when drug traffickers possess weapons.” II cmt. n.ll(A). It applies
to a co-conspirator’s possession of a firearm when “the possess.on was m
furtherance of the conspiracy,.
the time of possession, and . .

.. the defendant was a member of the conspiracy at
the co-conspirator’s possession was reasonably

foreseeable by the defendant.” United Statesjv

. Fields, 408 F.3d 1356, 1359 (11th

Cir. 2005) (quotation marks omitted). To prove that the possession was in
furtherance of the conspiracy, the government need only show that the firearm
“was present.” hi

Once the government meets this burden, the burden shifts to

the defendant to demonstrate that a connection between the weapon and the
offense was “clearly improbable.” Id
At trial Wooten

testified that he had been involved with Wright in a heroin

distribution scheme for approximately two years He stored heroin belonging to
Wright at his house and, at Wright’s direction, would deliver it to a man named
Robert Lee

. Lee would then pay Wright for the heroin. Police conducted a search

of Wooten’s home and recovered heroin and “a couple of guns. At sentencing,
FBI Special Agent Jesse Marotta testified that Wooten admitted to owning the
guns that were seized from his house.
Based on that testimony, it was not error for the court to conclude that
Wooten

possessed the gun at his house where he stored heroin for Wright m

furtherance of the conspiracy. See id And Wright could not show that a
17

Case: 18-12678

Date Filed: 09/02/2020

Page: 18 of 18

connection between the gun and the offense was “clearly improbable.” See |d.
(holding that a connection between a seized firearm and the drug conspiracy was
not clearly improbable where firearms were present at locations where
co-conspirators sold drugs); United States v Fernandez, 58 F.3d 593, 599 (11th
Cir.

1995) (noting that the defendant dried and stored marijuana at his trailer and

rejecting his argument that it was clearly improbable that a pistol found in his
trailer was connected with the drug offense).
Nor did the court err in determining that it was reasonably foreseeable to
Wright that Wooten would have a gun to protect the heroin he was storing at
Wright’s direction. See Fields, 408 F.3d at 1359-60. We have noted that “guns
are a tool of the drug trade,” that “[fjhere is a frequent and overpowering
connection between the use of firearms and narcotics traffic,” and that it is
“reasonably foreseeable that a co-conspirator would possess a firearm where the
conspiracy involved trafficking in lucrative and illegal drugs.” Pham, 463 F.3d at
1246 (quotation marks omitted). In the trafficking trade, drugs and guns go
together.” United States v. Lopez, 649 F.3d 1222, 1242 (11th Cir. 2011) (“[Tjhis
Court has long recognized that, as Forrest Gump might say, drugs and guns go
together like peas and carrots.”). The district court did not err in enhancing
Wright’s sentence under § 2D 1.1 (b)(1).
AFFIRMED.
18

